<html>
<title> - THE FOUNDATION FOR SUCCESS: STRENGTHENING THE CHILD CARE AND DEVELOPMENT BLOCK GRANT PROGRAM</title>
<body><pre>[House Hearing, 113 Congress]
[From the U.S. Government Publishing Office]





               THE FOUNDATION FOR SUCCESS: STRENGTHENING
                  THE CHILD CARE AND DEVELOPMENT BLOCK
                             GRANT PROGRAM

=======================================================================

                                HEARING

                               before the

                    SUBCOMMITTEE ON EARLY CHILDHOOD,
                  ELEMENTARY, AND SECONDARY EDUCATION

                         COMMITTEE ON EDUCATION
                           AND THE WORKFORCE

                     U.S. House of Representatives

                    ONE HUNDRED THIRTEENTH CONGRESS

                             SECOND SESSION

                               __________

             HEARING HELD IN WASHINGTON, DC, MARCH 25, 2014

                               __________

                           Serial No. 113-54

                               __________

  Printed for the use of the Committee on Education and the Workforce


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]



                   Available via the World Wide Web:
                       www.gpo.gov/fdsys/browse/
           committee.action?chamber=house&committee=education
                                   or
            Committee address: http://edworkforce.house.gov
                                   ______

                         U.S. GOVERNMENT PUBLISHING OFFICE 

87-137 PDF                     WASHINGTON : 2015 
-----------------------------------------------------------------------
  For sale by the Superintendent of Documents, U.S. Government Publishing 
  Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; 
         DC area (202) 512-1800 Fax: (202) 512-2104 Mail: Stop IDCC, 
                          Washington, DC 20402-0001
                                   
            
            
            
            
            
            
            
            
            
            
                COMMITTEE ON EDUCATION AND THE WORKFORCE

                    JOHN KLINE, Minnesota, Chairman

Thomas E. Petri, Wisconsin           George Miller, California,
Howard P. ``Buck'' McKeon,             Senior Democratic Member
    California                       Robert E. Andrews, New Jersey
Joe Wilson, South Carolina           Robert C. ``Bobby'' Scott, 
Virginia Foxx, North Carolina            Virginia
Tom Price, Georgia                   Ruben Hinojosa, Texas
Kenny Marchant, Texas                Carolyn McCarthy, New York
Duncan Hunter, California            John F. Tierney, Massachusetts
David P. Roe, Tennessee              Rush Holt, New Jersey
Glenn Thompson, Pennsylvania         Susan A. Davis, California
Tim Walberg, Michigan                Raul M. Grijalva, Arizona
Matt Salmon, Arizona                 Timothy H. Bishop, New York
Brett Guthrie, Kentucky              David Loebsack, Iowa
Scott DesJarlais, Tennessee          Joe Courtney, Connecticut
Todd Rokita, Indiana                 Marcia L. Fudge, Ohio
Larry Bucshon, Indiana               Jared Polis, Colorado
Trey Gowdy, South Carolina           Gregorio Kilili Camacho Sablan,
Lou Barletta, Pennsylvania             Northern Mariana Islands
Martha Roby, Alabama                 John A. Yarmuth, Kentucky
Joseph J. Heck, Nevada               Frederica S. Wilson, Florida
Susan W. Brooks, Indiana             Suzanne Bonamici, Oregon
Richard Hudson, North Carolina
Luke Messer, Indiana

                    Juliane Sullivan, Staff Director
                 Jody Calemine, Minority Staff Director
                                 ------                                

  SUBCOMMITTEE ON EARLY CHILDHOOD, ELEMENTARY, AND SECONDARY EDUCATION

                     TODD ROKITA, Indiana, Chairman

John Kline, Minnesota                Carolyn McCarthy, New York,
Thomas E. Petri, Wisconsin             Ranking Minority Member
Virginia Foxx, North Carolina        Robert C. ``Bobby'' Scott, 
Kenny Marchant, Texas                    Virginia
Duncan Hunter, California            Susan A. Davis, California
David P. Roe, Tennessee              Raul M. Grijalva, Arizona
Glenn Thompson, Pennsylvania         Marcia L. Fudge, Ohio
Martha Roby, Alabama                 Jared Polis, Colorado
Susan W. Brooks, Indiana             Gregorio Kilili Camacho Sablan,
                                       Northern Mariana Islands
                                     Mark Pocan, Wisconsin
                                     
                                     
                                     
                                     
                                     
                                     
                                     
                                     
                                     
                                     
                                     
                                     
                            C O N T E N T S

                              ----------                              
                                                                   Page

Hearing held on March 25, 2014...................................     1

Statement of Members:
    Rokita, Hon. Todd, Chairman, Subcommittee On Early Childhood, 
      Elementary, and Secondary Education........................     1
        Prepared statement of....................................     3
    Scott, Hon. Robert, C. "Bobby", a Representative in Congress 
      from the State of Virginia.................................     4
        Prepared statement of....................................     6

Statement of Witnesses:
    Golden, Olivia, Dr., Executive Director, Center for Law and 
      Social Policy (CLASP), Washington, DC......................    90
        Prepared statement of....................................    92
    Jarmon, Gloria, Deputy Inspector General for Audit Services, 
      US Department of Health and Human Services, Washington, DC.    97
        Prepared statement of....................................    99
    Koos, Paula, Executive Director, Oklahoma Child Care Resource 
      & Referral Association, Inc., Oklahoma City, OK............     8
        Prepared statement of....................................    10
    Kostantenaco , Linda, President, National Child Care 
      Association, Washington, DC................................    85
        Prepared statement of....................................    87

Additional Submissions:

    Kline, Hon. John, Chairman, Committee on Education and the 
      Workforce:.................................................
        National Child Care Association, prepared statement of...   124
    Miller, Hon. George, Senior Democratic Member, Committee on 
      Education and the Workforce:
        Child Care Assistance Spending and Participation (CLASP) 
          in 2012, prepared statement of.........................   131
    Chairman Rokita questions submitted for the record to:
        Ms. Jarmon...............................................   140
        Ms. Koos.................................................   142
        Mrs. Kostantenaco........................................   144
    Response to questions submitted:
        Ms. Jarmon...............................................   147
        Ms. Koos.................................................   152
        Mrs. Kostantenaco........................................   155

 
             THE FOUNDATION FOR SUCCESS: STRENGTHENING THE
             CHILD CARE AND DEVELOPMENT BLOCK GRANT PROGRAM

                              ----------                              


                        Tuesday, March 25, 2014

                       House of Representatives,

              Subcommittee on Early Childhood, Elementary,

                        and Secondary Education,

               Committee on Education and the Workforce,

                            Washington, D.C.

                              ----------                              

    The subcommittee met, pursuant to call, at 10:06 a.m., in 
Room 2175, Rayburn House Office Building, Hon. Todd Rokita 
[chairman of the subcommittee] presiding.
    Present: Representatives Rokita, Kline, Scott, Davis, 
Fudge, Polis, and Pocan.
    Staff present: James Bergeron, Director of Education and 
Human Services Policy; Cristin Datch Kumar, Professional Staff 
Member; Nancy Locke, Chief Clerk; Daniel Murner, Press 
Assistant; Krisann Pearce, General Counsel; Mandy Schaumburg, 
Senior Education Counsel; Dan Shorts, Legislative Assistant; 
Nicole Sizemore, Deputy Press Secretary; Alex Sollberger, 
Communications Director; Alissa Strawcutter, Deputy Clerk; 
Tylease Alli, Minority Clerk/Intern and Fellow Coordinator; 
Jamie Fasteau, Minority Director of Education Policy; Scott 
Groginsky, Minority Education Policy Advisor; Julia Krahe, 
Minority Communications Director; and Megan O'Reilly, Minority 
General Counsel.
    Chairman Rokita. Good morning. A quorum being present, the 
subcommittee will come to order.
    Welcome.
    I would like to thank our witnesses for joining us to 
discuss opportunities to improve the Child Care and Development 
Block Grant Program.
    My apologies for not being able to visit with you before 
the hearing. We will hopefully get some time to visit 
afterwards, but again, thank you all for being here.
    As you may know, the full committee recently held a hearing 
to review the federal investment in early childhood care and 
development. During the hearing, we explored opportunities to 
streamline and improve existing programs to better serve 
children and their families.
    Today we will continue that discussion as we examine one of 
the largest and most critical programs in the nation's network 
of early childhood programs, called the Child Care and 
Development Block Grant, or CCDBG as we call it here in 
Washington and other places.
    Authorized in 1996 under the Child Care and Development 
Block Grant Act the CCDBG program provides funds to states to 
help low-income families access child care.
    Parents receive funds in the form of vouchers or 
certificates to pay for the child care provider of their 
choice, be it public or private, secular or religious, or in a 
home-based or center setting.
    CCDBG is invaluable to parents who are struggling to 
provide for their families. As a father of two boys myself, I 
know firsthand child care isn't just finding a place for your 
kids to go during your work day. It is a far more difficult 
decision about choosing a provider where you can trust trained 
professionals who will care for your child in a safe 
environment.
    Unfortunately, this is where CCDBG falls short. In the 
nearly two decades that have passed since the last 
reauthorization of the law, it has become increasingly clear 
the CCDBG program fails to ensure states develop or adequately 
enforce the health and safety, training, and inspection 
standards that really are the foundation for quality child 
care.
    Last year Child Care Aware of America released a report 
ranking the child care center regulations and oversight. The 
report found 10 states failed to conduct monitoring visits or 
inspections at least once a year. Even more troubling, five 
states do not check the child abuse registry before allowing an 
individual to even work in the center.
    With nearly 1.5 million children and their families 
participating in the CCDGB program, federal policy makers must 
take steps to strengthen the program and ensure enhanced 
program quality and accountability are the focus and the 
outcome.
    As many of you know, our colleagues in the Senate recently 
approved the Child Care and Development Block Grant 
Reauthorization Act of 2014. As Chairman Kline noted in our 
previous hearing on early care programs, the Senate legislation 
presents a solid foundation for reform, and I agree.
    I am pleased the Senate legislation includes language to 
raise the standards for child care providers, requiring states 
to implement minimum training requirements and conduct annual 
inspections of licensed providers.
    These provisions will help ensure caregivers are equipped 
to handle common health conditions and emergency situations, 
while also promoting facilities that are cleaner and safer for 
our nation's children.
    The Senate legislation also takes important steps to 
enhance transparency and better inform parents of their child 
care options. Under the bill, states are required to make 
public information on a range of key issues, including 
availability of child care services, the quality of providers, 
data on childhood development research, and general best 
practices.
    While many of these provisions will help to improve the 
quality of child care, we must also take steps to ensure these 
new requirements will help and not hinder, as is often the 
case, states in meeting the needs of children and their 
families.
    I also hope today we can discuss policy changes that work 
to streamline the federal early childhood system and help 
increase coordination among existing programs.
    If we are truly here to fight for people, and to empower 
people, so that they can build better lives for themselves and 
their families, access to quality child care is something we 
must address and frankly it is something we can do.
    The reauthorization of the Child Care and Development Block 
Grant Act provides that opportunity to work together to advance 
bipartisan legislation that will help our nation's most 
valuable children and families.
    I also look forward to examining the strengths and 
weaknesses of the CCDBG program and discussing opportunities 
for consensus between House priorities for reauthorization and 
the already-passed Senate legislation.
    Once again, I thank our witnesses for joining us today. We 
look forward to your testimony and a productive discussion on 
this important matter.
    I will now yield to my distinguished colleague and friend 
from Virginia, Mr. Scott, for his opening remarks.
    Mr. Scott?
    [The statement of Chairman Rokita follows:]

Prepared Statement of Hon. Todd Rokita, Chairman, Subcommittee On Early 
             Childhood, Elementary, and Secondary Education

    As you may know, the full committee recently held a hearing to 
review the federal investment in early childhood care and development. 
During the hearing, we explored opportunities to streamline and improve 
existing programs to better serve children and their families.
    Today we will continue that discussion as we examine one of the 
largest and most critical programs in the nation's network of early 
childhood programs, the Child Care and Development Block Grant, or 
CCDBG, program.
    Authorized in 1996 under the Child Care and Development Block Grant 
Act the CCDBG program provides funds to states to help low-income 
families access child care. Parents receive funds in the form of 
vouchers or certificates to pay for the child care provider of their 
choice, be it public or private, secular or religious, or in a home-
based or center setting.
    CCDBG is invaluable to parents who are struggling to provide for 
their families. As a father of two boys, I know firsthand child care 
isn't just finding a place for your kids to go during your work day. 
It's a far more difficult decision about choosing a provider where you 
can trust trained professionals will care for your child in a safe 
environment.
    Unfortunately, this is where CCDBG falls short. In the nearly two 
decades that have passed since the last reauthorization of the law, it 
has become increasingly clear the CCDBG program fails to ensure states 
develop or adequately enforce the health and safety, training, and 
inspection standards that are the foundation for quality care.
    Last year Child Care Aware of America released a report ranking 
state child care center regulations and oversight. The report found 10 
states failed to conduct monitoring visits or inspections at least once 
a year. Even more troubling, five states do not check the child abuse 
registry before allowing an individual to work in a center.
    With nearly 1.5 million children and their families participating 
in the CCDBG program, federal policymakers must take steps to 
strengthen the program and ensure enhanced program quality and 
accountability.
    As many of you know, our colleagues in the Senate recently approved 
the Child Care and Development Block Grant Reauthorization Act of 2014. 
As Chairman Kline noted in our previous hearing on early care programs, 
the Senate legislation presents a solid foundation for reform.
    I am pleased the Senate legislation includes language to raise 
standards for child care providers, requiring states to implement 
minimum training requirements and conduct annual inspections of license 
providers. These provisions will help ensure caregivers are equipped to 
handle common health conditions and emergency situations, while also 
promoting facilities that are cleaner and safer for our children.
    The Senate legislation also takes important steps to enhance 
transparency and better inform parents of their child care options. 
Under the bill, states are required to make public information on a 
range of key issues, including availability of child care services, the 
quality of providers, data on childhood development research and best 
practices.
    While many of these provisions will help to improve the quality of 
child care, we must also take steps to ensure these new requirements 
will help - not hinder - states in meeting the needs of children and 
their families. I also hope today we can discuss policy changes that 
work to streamline the federal early childhood system and help increase 
coordination among existing programs.
    If we are truly here to fight for people, and to empower people, so 
they can build better lives for themselves and their families, access 
to quality child care is something we must address.
    The reauthorization of the Child Care and Development Block Grant 
Act provides an opportunity to work together to advance bipartisan 
legislation that will help our nation's most vulnerable children and 
families. I also look forward to examining the strengths and weaknesses 
of the CCDBG program, and discussing opportunities for consensus 
between House priorities for reauthorization and the Senate-passed 
legislation.
                                 ______
                                 
    Mr. Scott. Thank you, Mr. Chairman.
    I want to thank you for convening the panel and our 
distinguished witness panel for their participation in today's 
hearing.
    I look forward to learning about the Child Care and 
Development Block Grant or CCDBG. I am going to call it a block 
grant, which is the largest federal program providing funding 
for child care.
    Through reauthorization of the block grant, which hasn't 
seen reauthorization since 1996, presents this committee with 
the unique opportunity to ensure access to affordable, quality, 
child care that will benefit our children and their parents. 
Quality child care programs can act as the first part of a 
continuum of learning that sets children on the path to 
success.
    A recent report released by the Center for American 
Progress showed that over 85 percent of Americans, including 77 
percent of Republicans, support expanding access to child care 
programs.
    Today, the Child Care and Development Block Grant supports 
low-income parents' ability to work or participate in training 
or education programs, and thus their self-sufficiency, and 
provides young children with early childhood experiences that 
can improve their learning readiness.
    The goals of the block grant are strongly related to 
preschool goals that our recent full committee hearing 
examined. Despite the similarities between child care and 
preschool services there are some fundamental differences 
between the two.
    Preschool is mostly aimed at 4-year-olds, whereas the block 
grant funds child care for children from birth to age 12. Most 
preschool programs require specific teacher credentials, such 
as bachelor degrees, and child care tends to lack such provider 
requirements. Pre-K programs often have a specific evidence-
based curriculum requirements which are mostly absent from 
child care settings.
    A number of issues come to mind when we discuss federally-
funded child care programs. In order to make the best of our 
investment, these programs must provide access to those who 
need the care, it must be affordable for enough families to be 
able to use it, and services must be of high quality.
    Poor child care access, affordability, and quality means 
that the continued congressional support or reauthorization of 
the block grant, including a modest funding increase, will be 
insufficient to meet the needs of low-income working parents 
and their young children.
    On the topic of access, we know that despite about 1.4 
million children receiving block grant subsidies, only one in 
six children eligible for federal child care systems under the 
block grant actually receives it.
    There are almost 600,000 children eligible for child care 
on waiting lists in just 19 states. Some states don't even keep 
waiting lists. They just turn eligible families away.
    About 40 percent of eligible children have access to Head 
Start, barely half of the 3-to 4-year-olds are enrolled in 
preschool programs, but just a third of the low-income children 
are enrolled in those programs and that is the group that 
really can benefit the most.
    Early Head Start was established to provide quality child 
development services for children birth to age 3; it reaches of 
less than 4 percent of eligible infants and toddlers.
    Even when low-income families do have access to child care, 
it is often unaffordable, forcing them to choose between paying 
for food, clothes, heat, or child care.
    According to the US Census Bureau, families living in 
poverty spend an average of 30 percent of their income on child 
care, compared to only 7 percent for those who are well above 
the poverty level.
    On the access and affordability issues that American 
families face, we know that barely a third of 4-year-olds that 
are in child care centers receive high-quality care. Because 
the block grant prioritizes workforce support for parents over 
education for children, the quality of some child care funds is 
poor, hindering some children's development and learning.
    One report found that 42 percent of children are in state 
pre-K programs that meet less than half the recommended quality 
standards.
    The block grant requires that states spend 4 percent of 
their grants on quality service--quality activities for this 
floor is clearly insufficient.
    Research from the National Center for Children and the 
National Institute of Child Health and Human Development 
confirms that children receive numerous benefits from high-
quality care, such as better cognitive development, fewer 
behavioral problems, enhanced cooperation, increased school 
readiness, and improved language use and comprehension.
    They will also be less likely to be involved in the 
criminal justice system, become a teen parent, or drop out of 
school.
    As with pre-K, the return on public investment and positive 
outcomes are generated only when you have quality care. Poor 
quality care can in fact be harmful and put children on the 
wrong path.
    That is why an expanded federal investment in quality child 
care is needed, including Head Start, along with support for 
preschool programs, given the importance of quality of care and 
early education to future outcomes. Congress and this 
administration are examining ways to improve the quality of 
publicly-funded child care under this block grant.
    Bipartisan reauthorization passed by the Senate 2 weeks ago 
emphasizes the necessary quality improvements including 
increasing the quality set aside for 4 percent to 10 percent in 
critical health and safety provisions such as program 
inspections, monitoring, provider training, credentials, and 
professional development.
    I am eager for a bipartisan collaboration as we reauthorize 
the block grant, as well as other legislation that addresses 
the educational needs of our children, such as HR 3461, the 
Strong Start for America's Children Act.
    We need bipartisan collaboration to allow all children to 
receive the opportunity to fulfill their potential.
    Thank you, Mr. Chairman. I yield back.
    [The statement of Mr. Scott follows:]

Prepared Statement of Hon. Robert C. "Bobby" Scott, a Representative in 
                  Congress from the State of Virginia

    Thank you, Mr. Chairman. I also want to thank our distinguished 
witness panel for their participation in today's hearing. I look 
forward to learning about the Child Care and Development Block Grant, 
or CCDBG, which is the largest federal program providing funding for 
child care.
    Reauthorization of the Child Care and Development Block Grant, 
which hasn't seen a reauthorization since 1996, presents this Committee 
with a unique opportunity to ensure access to affordable, quality child 
care that will benefit our children and their parents. Quality child 
care programs can act as the first part of a continuum of learning that 
sets children on the path to success. A recent report released by 
Center for American Progress showed that over 85% of Americans ? 
including 77% of Republicans ? support expanding access to child care 
programs.
    Today, the Child Care and Development Block Grant supports low-
income parents' ability to work or participate in training or education 
programs, and thus their self-sufficiency, and provides young children 
with early childhood experiences that can improve their learning 
readiness. These goals of CCDBG are strongly related to the preschool 
goals that our recent full committee hearing examined.
    Despite the similarities between child care and preschool services, 
there are some fundamental differences between the two: preschool is 
mostly aimed at 4-year olds, whereas CCDBG funds child care for 
children from birth to age 12; most preschool programs require specific 
teacher credentials, such as bachelor's degrees, and child care tends 
to lack such provider requirements; and prekindergarten programs often 
have specific evidence-based curricular requirements, which are mostly 
absent from child care settings.
    A number of issues come to mind when we discuss federally funded 
child care programs - in order to make the best of our investment, 
these programs must provide access to those who need child care, must 
be affordable enough for families to use, and services must be of a 
high quality.
    Poor child care access, affordability, and quality means that 
continued Congressional support or reauthorization of CCDBG, including 
a modest funding increase, will be insufficient to meet needs of low-
income working parents and their young children.
    On the topic of access, we know that despite about 1.4 million 
children receiving CCDBG subsidies, only one in six children eligible 
for federal child care assistance under CCDBG actually receives it. An 
estimated 590,000 children eligible for child care are on waiting lists 
in 19 states and that number doesn't include two states that don't keep 
waiting lists and instead simply turn away eligible families. Just 40% 
of eligible children have access to Head Start. Barely half of 3 and 4 
year olds are enrolled in preschool programs, and just a third of low-
income children are enrolled in such programs. Early Head Start, 
established to provide quality child development services to children 
birth to age 3, reaches less than 4% of eligible infants and toddlers.
    Even when low-income families do have access to child care, it's 
often unaffordable, forcing some of them to choose between paying for 
food, clothes, heat, or child care. According to the U.S. Census 
Bureau, families living in poverty spend an average of 30% of their 
income on child care, compared with 18% for families earning between 
100% and 150% of the Federal Poverty Level (FPL), and 7% for families 
earning at or above 200% of the FPL.
    On top of access and affordability issues American families face, 
we know that barely a third (35%) of 4-year olds in child care centers 
receive high-quality care. Because CCDBG prioritizes workforce support 
for parents over education for children, the quality of some of the 
child care it funds is poor, hindering some children's development and 
learning. One report found that 42% of children are in state 
prekindergarten programs that meet less than half of the recommended 
quality standards. CCDBG requires that states spend at least 4% of 
their grants on quality activities, but this floor is clearly 
insufficient.
    Research from the National Center for Children and the National 
Institute of Child Health and Human Development confirms that children 
receive numerous benefits from good quality care such as better 
cognitive development, fewer behavioral problems, enhanced cooperation, 
increased school readiness, and improved language use and 
comprehension. They will also be less likely to be involved in the 
criminal justice system, become pregnant as a teenager, or drop out of 
school. As with prekindergarten, the return on public investment and 
positive outcomes are generated only by quality care - poor quality 
care can in fact be harmful and put children on the wrong path.
    That's why an expanded federal investment in quality child care is 
needed, including Head Start, along with state support for preschool 
programs. Given the importance of the quality of care and early 
education to future outcomes, Congress and the administration are 
examining ways to
    improve the quality of publicly funded child care under the CCDBG. 
The bipartisan CCDBG reauthorization passed by the Senate two weeks ago 
emphasizes necessary quality
    improvements, including increasing the quality set-aside from 4% to 
10%, and critical health and safety provisions, such as more program 
inspections and monitoring, and provider training, credentials, and 
professional development.
    I am eager for bipartisan collaboration to reauthorize the Child 
Care and Development Block Grant, as well as other legislation that 
addresses the educational needs of our country, such as the H.R. 3461, 
the Strong Start for America's Children Act. We need bipartisan 
collaboration to allow all children receive the opportunity to fulfill 
their potential. Thank you.
                                 ______
                                 
    Chairman Rokita. I thank the gentleman.
    Pursuant to Committee Rule 7(c) all subcommittee members 
will be permitted to submit written statements to be included 
in the permanent hearing record.
    Without objection the hearing record will remain open for 
14 days to allow statements, questions for the record, and 
other extraneous materials referenced during the hearing to be 
submitted into the official record.
    It is now my pleasure to introduce our distinguished panel 
of witnesses. First we have Ms. Paula Koos. She is the 
executive director of the Oklahoma Child Care Resource and 
Referral Association.
    Welcome.
    Next we have Mrs. Linda Kostantenaco. She is president of 
the national Child Care Association, the owner director of the 
Kiddie Koup Children's Enrichment Center in San Antonio, Texas.
    I practiced your name much better then when I actually said 
it. That is the story of my life. Excuse me. Welcome.
    Dr. Olivia Golden is the executive director for the Center 
for Law and Social Policy otherwise known as CLASP.
    Welcome.
    Ms. Gloria Jarmon is Deputy Inspector General for Audit 
Services within the Office of the Inspector General at the US 
Department of Health and Human Services.
    Thank you for your public service, and welcome.
    Before I recognize each of you to provide your testimony, 
let me briefly explain our lighting system. This is more of a 
reminder for us up here probably than it is for you, but just 
for the record, you each will be given 5 minutes to give your 
testimony.
    When there is 1 minute remaining, the green light will turn 
to a yellow light, and of course when it turns red, that means 
you need to have stopped unless you get gaveled down by me in 
an angry manner.
    I am sure it won't be the case. It will be interesting 
dinner conversation. You can go home and say, ``I was gaveled 
down in Washington.'' In fact, I think there are T-shirts in 
the gift store. ``I went to Washington and got gaveled down.''
    Now I would like to recognize Ms. Koos for 5 minutes.
    Thank you.

STATEMENT OF MS. PAULA KOOS, EXECUTIVE DIRECTOR, OKLAHOMA CHILD 
 CARE RESOURCE & REFERRAL ASSOCIATION, INC., OKLAHOMA CITY, OK

    Ms. Koos. Good morning. I want to thank the chairman, Mr. 
Kline, of the committee, Chairman Rokita of the subcommittee, 
and the members of the subcommittee for inviting me to testify 
today.
    Child care is a way of life for the majority of families. 
It is the same in Oklahoma, but child care is hard to find. It 
is hard to afford, and too often the quality is questionable. 
Parents worry about the cost and they worry about the safety of 
their kids when mom and dad are at work.
    I am the executive director of the Oklahoma Child Care 
Resource and Referral Association. My agency is one of about 
600 CCR&Rs across the country. We help parents locate child 
care, and we give families consumer education so that they can 
make informed choices. Our services to families are free 
because of the child care development block grant, CCDBG.
    We also work with providers every day to help improve the 
quality of child care through training and technical 
assistance. Child care is actually a network of small 
businesses mostly owned by women. In my state this is an 
industry that generates $500 million in revenues and it employs 
over 20,000 workers who earn $290 million annually.
    My agency offers training related to strengthening the 
workforce and also business related training and technical 
assistance because we know sound fiscal management is the 
foundation of quality programs.
    I urge the subcommittee to consider business TA as an 
important component within the quality set aside. Oklahoma is 
well known for our strong child care system. Child Care Aware 
of America consistently ranked Oklahoma among the top five 
states in its review of child care licensing policies. We were 
also the first in the nation to establish a quality rating and 
improvement system for child care.
    Our Reaching for the Stars Program gives parents a better 
way to understand and choose quality settings. All child care 
programs that accept subsidy payments funded by CCDBG 
participate in the rating system. This offers parents choices 
and ensures that there is accountability in the expenditure of 
public funds.
    But Oklahoma does not have a perfect system. We continue to 
work toward safety, accountability, and quality.
    Two child tragedies in Oklahoma led to the strengthening of 
our child care system. In May 2007, 2-year-old Joshua Minton 
died in a family child care home in Tulsa. The child care owner 
admitted to using masking tape to tape his hands and mouth 
because he was whining just prior to naptime. She is serving a 
life sentence today for first-degree murder.
    Despite a history of licensing violations the state did not 
act to close the program. Since Joshua's death the state has 
revised its program closure policies and tightened state 
background check requirements and inspection enforcement 
activities.
    The second boy whose story I would like to share with the 
committee did not die. Demarion Pittman, a 3-year-old boy 
suffered heatstroke and extensive brain damage after being left 
in a stifling hot van operated by an uninsured child care 
program in August of 2007. His family has already faced 
millions of dollars in medical costs.
    In 2008 state legislation was enacted to require all 
licensed child care programs to carry liability insurance. The 
measure also requires agencies that aren't able to obtain 
insurance to inform parents that they have no liability 
coverage.
    Most states do not require child care programs to purchase 
liability insurance. And of the states that do, many are in 
response to tragedies.
    In conclusion, it has been 17 years since the child care 
and development block grant was last reauthorized. We now have 
the benefit of researched data that demonstrates clearly the 
disparity among state policies. It is time to provide some 
minimum protection for all our children to ensure the public 
dollars are spent in an accountable way.
    I urge the subcommittee to give every consideration 
possible to requiring comprehensive background checks for child 
care providers and volunteers who care for unrelated children; 
set minimum health and safety requirements for all children in 
child care; require those who work in child care to have at 
least 30 hours of pre-service training and 24 hours of annual 
training; ensure that all child care programs are subject to 
inspection prior to licensure and at least once annually, 
especially when CCDGB dollars are used to pay for care; 
increase the quality set aside for activities related to 
improving the quality of care; and consider a study by the 
National Academy of Sciences to review the cost of child care 
and recommend ways to design a better system.
    Thank you. I have several documents I would like to submit 
for the record.
    [The statement of Ms. Koos follows:]
    
    
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
       
    Chairman Rokita. And without objection, we will put those 
in. Thank you for your testimony.
    Ms. Kostantenaco?

STATEMENT OF MRS. LINDA KOSTANTENACO, PRESIDENT, NATIONAL CHILD 
               CARE ASSOCIATION, WASHINGTON, D.C.

    Mrs. Kostantenaco. Good morning, Chairman Rokita, Ranking 
Member Scott, and ranking members of the subcommittee.
    My name is Linda Kostantenaco, and I am the president of 
the National Child Care Association. NCCA represents over 
12,000 private child care centers throughout the United States.
    Our membership is comprised of independently owned and 
operated family run businesses, employing over a quarter of a 
million Americans; most of whom are women.
    Our child care centers provide two vital components; 
education, along with a nurturing, healthy and safe 
environment. The balance of education and care is a crucial 
factor of education and care for parents finding the best child 
care center for their children.
    Further, our centers provide the peace of mind that enables 
parents to do productive during their working hours; working 
men and women are able to be contribute to society while their 
children learn and grow in child care centers across the 
country.
    But not every center satisfies every need. It should be 
noted that the importance of parental choice be maintained. 
Such flexibility ensures parents the opportunity to provide an 
appropriate child care center which satisfies their needs and 
the unique needs of their children. It is in this array of 
choice that facilitates the best partnership between a family 
and their child care center.
    When examining the need for parental choice, and the 
benefits private child care centers provide, it should also be 
noted that the significance of parental education and 
understanding of the available choices in their community.
    For example, it is important that we educate parents 
regarding the vital choice of identifying a licensed child care 
center that is regulated, inspected, and monitored by 
regulatory agencies to insure that the rules and regulations 
are kept at their highest standards.
    Our membership strives to offer the best child care 
available, and in these centers that ensure that high quality 
is met and maintained. Setting these standards ensures that 
such centers that receive private pay or subsidy funds for 
their children are performing at their best, and we should 
never compromise their values.
    Regarding my own center, I am located in San Antonio, 
Texas, and I receive funding for approximately 10 percent of my 
children in our care. In other communities through the United 
States the percentage of children receiving these funds can be 
as high as 95 percent.
    Such funding not only assists low-income families but also 
includes care for children in protective services and foster 
parents. This enforces the need to place children in an 
environment that is conducive to their needs and providing them 
with a healthy and safe environment.
    My center employs 22 hard-working women, and I would not be 
here sitting in front of you today without their unwavering 
commitment to quality care. My staff not only is hard-working, 
but dedicated, and as a private child care operator I 
understand the vital role continuing education which plays as 
part of maintaining a well-rounded, dedicated staff. Providing 
them with training opportunities that will help them in the 
classroom is essential in their workplace environment.
    Unfortunately, we cannot afford to pay our employees what 
they so deserve, as the profit margins within the child care 
industry is not significant, and a weakened economy only 
compounds this reality.
    Aside from salaries and maintaining an engaging center with 
toys and educational resources, I must also consider food, 
milk, utilities, gas prices for transportation, building and 
playground maintenance, and many other costs that create 
significant challenges in operating a private child care 
center.
    Due to all of these economic forces, we are not always in 
the position to pass these higher costs on to our parents, 
leaving me to absorb them as best I can. You can imagine the 
difficult situation I find myself in each year in awarding my 
staff with the pay they so deeply deserve. Their genuine 
dedication truly becomes a blessing when we move forward each 
day.
    That said, we offer a service to our working parents that 
is essential to affordable care for their children while they 
try to improve their family's lives.
    These parents are working long hours, multiple jobs, or 
going to school to improve their own skills and education, and 
the funding from the Child Care Development Block Grant 
Program, CCDGB, goes a long way to help the families succeed.
    CCDBG assists low-income families in obtaining a safe, 
reliable and affordable place for their children while they 
continue to work for a better life. This program greatly 
supports the child care industry and it is comforting to know 
that the Congress is invested in child care as I am.
    I thank you all for your dedication and attention regarding 
the child care industry and the unique needs of our centers and 
staff. Funding and supporting our industry allows parents the 
opportunity to keep succeeding in this country and gives their 
children the opportunity to receive the nurture and education 
vital to their future success.
    I thank you, Chairman Rokita, for having me here today, and 
I look forward to the subcommittee's questions regarding the 
private child care provider.
    [The statement of Mrs. Kostantenaco follows:]
   
   [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
   
    
    Chairman Rokita. Thank you very much for your testimony.
    Dr. Golden?

STATEMENT OF DR. OLIVIA GOLDEN, EXECUTIVE DIRECTOR, CENTER FOR 
        LAW AND SOCIAL POLICY (CLASP), WASHINGTON, D.C.

    Ms. Golden. Good morning, Chairman Rokita, Ranking Member 
Scott, members of the subcommittee, I am delighted to be here 
today to discuss the Child Care and Development Block Grant 
Act. As we heard, it is abbreviated CCDBG. I am Olivia Golden, 
executive director of the Center for Law and Social Policy.
    I will very briefly touch on four topics; why CCDBG matters 
so much for parents and children, the federal-state partnership 
that is at its core, the program's successes and remaining 
gaps, and next steps.
    Why it matters: The Child Care and Development Block Grant 
is an essential work support for low-income parents, as you 
heard from Mrs. Kostantenaco.
    Every day it provides access to child care for 1.4 million 
children. For those children's parents, working long hours for 
little pay, help with child care is necessary if they are going 
to work and cover other basic expenses.
    The average annual cost of center-based care for a 4-year-
old ranges from more than $4,500 in Tennessee to more than 
$12,000 in New York State. When poor families get help with 
this cost, studies show that they can stretch their paychecks 
to buy needed food and clothing.
    But more than that, child care systems also helps parents 
get and keep a job and strengthen families' economic security. 
Compared to families without subsidies, the research shows 
fewer job disruptions due to child care problems, better job 
retention, and higher earnings when families get help.
    Let me put a face to these findings. In July 2012, Rita, a 
low-income working mother in Maryland, talked about the 
importance of child care assistance.
    ``These federal investments were a lifeline for me. I know 
where I came from and I do not want to go back.'' CCDBG helped 
Rita afford child care, attend classes to develop work skills, 
and secure and keep a job.
    CCDBG doesn't just help parents, it helps children. It 
provides an early learning experience for approximately 1 
million children under age 6 each month and helps about 400,000 
school-aged children access safe afterschool programs.
    When CCDBG is strong, when it is working well, it also 
promotes quality by helping low-income parents afford high-
quality programs, which would be impossible or at least very 
difficult without assistance.
    A recent study confirmed that parents receiving child care 
assistance access better quality than parents who can't get 
help. Studies of families on waiting lists for child care 
assistance confirm that families without help are often left 
with low-quality or unsafe options.
    Finally, CCDBG helps parents who work nonstandard hours on 
the weekends or evenings, which many low-wage workers do, by 
allowing them to use more informal care settings that meet 
their needs.
    Since its inception, CCDBG has been a state-federal 
partnership. The federal government sets the broad parameters, 
including income eligibility limits and a floor for basic 
health and safety. The states make policy decisions within 
those parameters; who to serve and what specific health and 
safety standards to set above the minimum floor.
    In addition to providing direct help to families, CCDBG 
also funds something else important. It provides the bulk of 
the funding that supports child care and early childhood 
quality improvement in the states. That includes money to pay 
for inspections and monitoring of child care programs as well 
as training, professional development, and scholarships for 
early childhood educators, and many other things.
    Despite the importance of these accomplishments, 
significant gaps remain. Since 2006, more than 260,000 children 
have lost CCDBG-funded child care assistance. The number of 
children is now at a 14-year low. Rates paid to providers are 
extremely low, getting in the way of quality improvements. Many 
states fall short of ensuring the most basic health and safety 
protections for children.
    The Senate reauthorization for CCDBG is an important next 
step in the direction of fixing these challenges; improving 
continuity for children and parents, ensuring children's health 
and safety, strengthening the quality of care and skills of 
child care teachers, and promoting program integrity.
    In addition though, to move towards these goals, given the 
low payment rates and the decline in children served, 
increasing resources for child care must also be a top 
priority.
    In conclusion, it has been nearly 20 years since the CCDBG 
has been reauthorized. We know a lot more now about the 
importance of the early childhood years, the quality of care, 
and the role of family income in children's development than we 
did then. For all these reasons, I urge the committee to 
seriously consider these improvements to CCDBG.
    Thank you.
    [The statement of Dr. Golden follows:]
   
   [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
   
    
    Chairman Rokita. Thank you, doctor.
    Ms. Jarmon?

 STATEMENT OF MS. GLORIA JARMON, DEPUTY INSPECTOR GENERAL FOR 
     AUDIT SERVICES, OFFICE OF THE INSPECTOR GENERAL, U.S. 
   DEPARTMENT OF HEALTH AND HUMAN SERVICES, WASHINGTON, D.C.

    Ms. Jarmon. Good morning Chairman Rokita, Ranking Member 
Scott, and other distinguished members of the subcommittee. 
Thank you for the opportunity to be here today to discuss the 
Department of Health and Human Services Office of Inspector 
General's recent reviews of the Child Care Development Fund 
Program or CCDF.
    My testimony will summarize our office's findings and 
recent reports and has three key takeaways.
    First, vulnerabilities exist in state standards and 
monitoring of child care providers that put the health and 
safety of some children at risk. Federal requirements mandating 
that states strengthen minimum health and safety requirements 
including background checks and strengthen monitoring including 
unannounced site visits would reduce those risks.
    Two, weaknesses in certain states' fiscal controls over 
obligation and liquidation activities put CCDF funds at risk of 
being misspent.
    And three, HHS has identified the CCDF program as being 
susceptible to significant improper payments. HHS reported 
substantial progress in reducing the improper payment rate for 
the CCDF program from 9.4 percent in fiscal year 2012 to 5.9 
percent in fiscal year 2013. However sustained attention will 
be needed to further reduce improper payments in this program.
    In fiscal year 2013, Congress appropriated $5.1 billion to 
CCDF which provides financial assistance for child care for 
approximately 1.6 million children each month.
    CCDF subsidizes child care for low income children under 
age 13 whose parents work or attend educational or job training 
programs. States are required to have health and safety 
standards in place for all child care providers including those 
providers receiving CCDF funds.
    These standards must cover three areas: prevention and 
control of infectious disease, building and ground safety, and 
health and safety training.
    Our work has demonstrated that guidance from the 
Administration for Children and Families or ACF recommendations 
may not be strong enough to ensure that the necessary 
background screenings of providers and unannounced inspections 
occur.
    We are performing health and safety reviews at a number of 
states. Our recent completed review of Connecticut showed that 
all 20 of the providers reviewed did not comply with one or 
more state licensing requirements to ensure the health and 
safety of children.
    An example of noncompliance included flammable items such 
as lighter fluid and gasoline found either in unlocked cabinets 
or in the outdoor play area all accessible to children.
    We also review at each state the monitoring of licensed 
child care providers and report that all states comply with the 
federal requirements to have health and safety requirements in 
place for licensed child care providers.
    However, states monitoring requirements for license 
providers did not always meet ACF's recommendations for 
background screenings or the recommended standards for 
unannounced inspections.
    Additionally, we reviewed each states health and safety 
requirements and monitoring requirements for license-exempt 
child care providers.
    We found that a number of states did not report having any 
requirements for certain licenses and providers, and some 
reported that they did not have requirements in place to 
monitor licenses and providers.
    Other states reported limited monitoring and limited use of 
background checks.
    Our work also includes reviews of states' use of funds for 
targeted purposes that are 100 percent federally funded. 
Weaknesses in certain states fiscal controls over obligating 
and liquidating these funds put CCDF money at risk of being 
misspent.
    To date our audits in four of seven states reviewed have 
identified a total of $5.8 million in targeted fund 
expenditures that did not comply with federal requirements over 
a 6-year period.
    Lastly, as part of our oversight activities we are required 
to review HHS' annual improper payment information related to 
CCDF and other risk susceptible programs to determine and 
report compliance with the Improper Payments Information Act as 
amended.
    In fiscal year 2013 reporting, HHS estimated that improper 
payments for CCDF program totaled about $306 million or a 5.9 
percent error rate. This is a significant reduction from the 
prior year estimated improper payment error rate of 9.4 percent 
and represents much progress.
    Looking ahead, sustained attention by HHS will be needed to 
continue achieving reductions of improper payments in the CCDF 
program.
    In closing, I thank the subcommittee for its interest in 
our work and commitment to our shared goals: ensuring that 
federal CCDF dollars are used for their intended purposes of 
providing affordable child care to low income families that 
does not sacrifice quality or safety.
    I will be pleased to answer your questions.
    [The statement of Ms. Jarmon follows:]
    
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    Chairman Rokita. Thank you, Mr. Chairman.
    Again I thank all the witnesses.
    Now I would like to recognize the chairman of the full 
committee, Chairman Kline.
    Recognized for 5 minutes.
    Mr. Kline. Thank you, Mr. Chairman.
    I want to thank you for holding the hearing. I want to 
thank the witnesses for making the trip here. Delightful 
weather outside. Thank you for your testimony and for your work 
in this important area.
    As the House starts its process, this committee and the 
House starts its process of looking at reauthorizing this 
important legislation, we are very pleased that you were able 
to come here today and help us take a look at this.
    Mrs. Konstantenaco--I practiced as well--why do you think 
it is important for a state child care system to offer a mixed 
delivery model? And then can you tell us how private providers 
contribute to that mixed delivery model?
    Mrs. Kostantenaco. Well, it gives the parents a choice. 
Again we need to make them aware of the regulations that we 
follow, that they need to go to licensed child care in that 
vicinity. We want to make sure that there is a continuity of 
care.
    Again, we are there to nurture those children and take care 
of them on their daily needs through educating them as well. 
But again, for most of them the health and safety are a vital 
concern.
    Again, it is parents' choice. They know what is best for 
their children, but again, sometimes they need that educational 
background to know that they need to go to a licensed child 
care and have that option to be able to choose where they need 
to go.
    Mr. Kline. And the private providers offer those different 
approaches?
    Mrs. Kostantenaco. Yes. Some doing different hours of care, 
et cetera.
    Mr. Kline. Okay, thank you.
    Ms. Koos--I didn't practice that quite as much and probably 
should have--what steps do you think Congress should take to 
strengthen coordination among the early childhood education and 
early childhood care programs?
    Ms. Koos. Well, I think the Headstart preschool partnership 
is probably a good start--that we are going to be working early 
Headstart and child care are going to be working together.
    I think one of the things that we need to be sure happens 
is that everybody is working under some of the same standards, 
that they are all looking at the health and safety of children. 
Not every program has the same standards.
    In Oklahoma we are attempting right now to come up with a 
system that incorporates pre-K, Headstart, and child care so 
that if you meet certain standards in Headstart you are also 
meeting the same standards in the QRS program for child care 
and you are meeting the same standards that the education 
department has established for pre-K.
    That is not necessarily true and so it makes it difficult 
to know when you are going program to program to program are 
they equal, are they comparable, do they have the same quality 
standards in place.
    Ms. Golden. If I may add a comment about the national 
experience, I do think that there is a lot of really good work 
going on, as you describe, in states that are doing 
coordination.
    So for example, when I worked in New York State, 
partnerships between pre-K, Head Start, and child care, the 
potential for a child--because the Child Care and Development 
Block Grant is unique in its ability to support the children of 
working families full day and full year, so you might be able 
to have the core preschool program delivered for several hours 
in a setting and then support with child care dollars the full 
day.
    So I do think that collaboration is very important. All the 
systems need resources to make it work and the Senate 
reauthorization encourages even more of that, but I do think 
that is an important area where the child care block grant 
program is contributing to good partnerships going on around 
the country.
    Mr. Kline. Okay. Thank you very much. I see my light has 
turned yellow and in probably a futile effort to set the 
example for the rest of my colleagues, I will yield back.
    Chairman Rokita. I thank the chairman.
    Mr. Scott is recognized for 5 minutes.
    Mr. Scott. Thank you, Mr. Chairman.
    Ms. Golden, we just heard the question about interaction 
between pre-K and Head Start. If we want quality education, why 
don't we just put all of the money in pre-K and Head Start? Why 
do you have to have the child care in addition to that?
    Ms. Golden. Well, the reason we need all those programs to 
be strong--I think there are two big reasons--one of them which 
I just mentioned is that the Child Care and Development Block 
Grant has as its mission supporting care for working parents 
and so it has the capacity to provide full-day and full-year 
care.
    So there are, for example, partnerships like the one I 
mentioned where a child might be in prekindergarten or in a 
Head Start program but need care for the whole day--a mother 
who is working can't take a child to a 4-hour program and pick 
them up again.
    I think a second really important reason is that the Child 
Care and Development Block Grant addresses children of all 
ages, and for infants and toddlers - I think it may have been 
in your opening statement - highlighting only about four 
percent reach through Early Head Start.
    We need far more resources in Early Head Start, but we also 
need the capacity through the block grant to reach those 
children and to reach school-age children.
    I guess the last thing I would highlight is that when 
researchers look at all those programs and look at the universe 
of needs, the families who are working and struggling to find 
care, what they find is a lot of unmet need in all of them. So 
we need to strengthen each of the pieces and make them fit 
together well.
    Mr. Scott. I think, Ms. Jarmon, you might be able to answer 
this.
    Everybody is talking about quality in general. What kind of 
initiatives are funded with the quality set-asides? Is that 
something that you looked at?
    Ms. Jarmon. We haven't looked at the initiatives related to 
the quality of set-asides. We are doing some health and safety 
reviews at several states.
    Mr. Scott. Okay, let me get back to Ms. Golden.
    Ms. Golden. Sure. I can give some examples and then you may 
have examples in other states. The quality resources from the 
child care block grant are really important for a whole range 
of things.
    They pay for training, professional development, a program 
that is sometimes called the TEACH program, where somebody in a 
child care program can get some further training and then come 
back and get a boost in their salary to reflect that 
credential.
    The quality rating system that I think Ms. Koos described 
in most states, setting that kind of system up where you would 
be able to give it from one star to four or five stars 
depending on the quality, and then you would be able to provide 
a program say that was a three star and wanted to get better, 
you could give them some resources to do that.
    That is another example. Sometimes things just as basic as 
the kind of equipment or materials that a home family child 
care provider needs to be able to provide an educational 
experience. Those are all examples.
    Ms. Jarmon. Can I add a little bit more because I was 
thinking about the quality setting--we do work on targeted 
funds and some of those are for quality issues.
    Our work on the targeted funds is also in several states 
and we are actually looking at how the funds are accounted for 
and that is where we have found some issues where in some cases 
funds were obligated beyond the obligation period and had been 
in some cases liquidated beyond the liquidation period, but 
there we were focusing more on the accounting related to what 
we call targeted funds and I believe the quality is one of the 
three areas of the targeted funds, so I wanted to correct that.
    Ms. Koos. What we know about quality is that the education 
of the child care provider makes a huge difference in the 
experience that a child is going to have in child care.
    One of the things that states can use their CCDBG dollars 
to do is to help pay for educational opportunities for child 
care providers.
    In Oklahoma we assist child care providers with college 
tuition. It also helps pay for training in general. Most of the 
CCR&R budgets come from the CCDBG dollars and most of the 
CCR&Rs provide training in Oklahoma. We provide about 50 
percent of the training that child care providers receive in a 
year.
    Mr. Scott. I don't want to cut you off--
    Ms. Koos. It is also used to just improve training 
practices, so if you--
    Mr. Scott. I don't mean to cut you off, but I am trying to 
get in another question before the red light comes on.
    Ms. Koos. Okay.
    Mr. Scott. Ms. Golden, quality costs more than lack of 
quality. What are some of the costs if we don't make these 
investments?
    Ms. Golden. I think the costs if we don't make quality 
investments are a lot better known now than they were 20 years 
ago. That providing quality care for children for young 
children pays off in terms of their later ability to succeed in 
life, so their ability to succeed in school, to make good 
choices as adolescents, to succeed as adults and the costs of 
not doing that are that children potentially to not finish high 
school or become parents too early.
    I also think that when it comes to the--
    Mr. Scott. Do these have an effect on the teen pregnancy 
rate, criminal justice system, drug abuse, dropping out?
    Ms. Golden. I think it is fair to say that quality in early 
childhood has an effect on all of those things, yes. I also 
just want to say that in this program quality and continuity 
also have an effect on the parents' work because if the 
problems cause the setting--cause it to be disruptive than the 
parent isn't going to be able to work steadily either.
    Chairman Rokita. I thank the gentleman. The gentleman's 
time has expired.
    Ms. Fudge is recognized for 5 minutes.
    Ms. Fudge. I thank you very much, Mr. Chairman.
    I thank you all for being here today. Thank you for your 
testimony.
    I would like to begin with Ms. Kostantenaco. A question--
you mentioned the fact that most child care workers are women--
    Mrs. Kostantenaco. Yes.
    Ms. Fudge.--who are paid low wages.
    Mrs. Kostantenaco. Yes.
    Ms. Fudge. Can you give me some idea of what you think the 
effect of the low wages have on the child care programs 
themselves as well as the families of the people who work in 
this industry?
    Mrs. Kostantenaco. Okay. Well, if you don't--if you are not 
able to pay your staff they go someplace else. In my history I 
have been very lucky to have a supportive staff that some of 
them have raised their children in my center when they started 
working for me.
    Again, it is hard to retain staff in some areas. I have 
been very lucky, but other people there is always an in--
    Ms. Fudge. You have a great deal of turnover--it is a 
possibility for a great deal of turnover?
    Mrs. Kostantenaco. It can be, yes, it can be.
    Ms. Fudge. And often a lot of these people too use safety 
net programs from the government to make ends meet, sometimes, 
right?
    Mrs. Kostantenaco. Yes.
    Ms. Fudge. Okay. Thank you.
    Ms. Koos, let me just ask this question. You have been 
talking about raising the standard minimum requirements, which 
I agree with. But you know a lot of people in the House of 
Representatives don't believe in regulation.
    Please express to me again why you think it is so important 
that there be some basic minimum standard to protect our 
children.
    Ms. Koos. Well I think it is very important because we are 
talking about the safety of our children. In some states where 
there is no inspection prior to licensure and there is no 
inspection on a regular basis, a child can go into child care 
and wind up in kindergarten and the facility that they have 
been in has never been inspected.
    If people don't know what they don't know they can't 
improve their practices and without some standards, some basic 
standards that say every program needs to meet this standard 
you can't leave it to chance.
    Parents assume when you tell them that a program is 
licensed that they have met a certain limited number of 
regulations and that somebody has checked on it. That is not 
true in every state.
    We are very fortunate in the State of Oklahoma that if you 
get a license in Oklahoma you are inspected three times a year. 
That is very unusual because it is significantly less than that 
in many states.
    Ms. Fudge. Thank you. I am assuming no one disagrees with 
the fact that there needs to be some basic--thank you very 
much.
    Ms. Jarmon, what are your thoughts on the Senate-passed 
bill as it relates to strengthening training for providers--you 
talked about in your testimony--strengthening training for 
providers and intake workers, plus monitoring, plus talking 
about background checks? You talked about all of that. Tell me 
again why you believe that would reduce the amount of fraud or 
abuse in this program.
    Ms. Jarmon. Our reports have recommended some minimum level 
of standards also for heath and safety requirements including 
comprehensive background checks and strengthening the 
monitoring including unannounced visits, so our work has 
supported the need for that also.
    Ms. Fudge. I just want to--and I am going to yield back--
but I want to thank you all for coming. I know how important it 
is.
    Child care is a very important issue in this country for 
working people, in particular especially for poor working 
parents, for those who are just trying to get by, and I know 
the cost of it has continually gone up and our salaries haven't 
gone up and people are having a very difficult time in this 
nation.
    So I thank you all for your care and concern whether you 
agree or disagree, I know that you all care about America's 
children, and I thank you for that.
    I yield back, Mr. Chairman.
    Chairman Rokita. I thank the gentlelady.
    Mr. Pocan is recognized for 5 minutes.
    Mr. Pocan. Thank you, Mr. Chairman.
    Thank you to the witnesses today. I come from a state where 
we have a Quality Star Program as well. In fact, we created it 
when I was in the legislature and now we are trying to see the 
impact and implementation of how that is coming together.
    First of all, let me start with Dr. Golden specifically to 
what the Senate passed.
    One, I am just wondering--you briefly touched some of the 
improvements that you perhaps suggest to that bill. Can you 
just expand on that a little bit?
    Ms. Golden. In terms of the provisions of the Senate bill 
that are improvements to the program.
    Mr. Pocan. Yes.
    Ms. Golden. I would highlight several categories. We have 
talked particularly about the improvements to the basic health 
and safety standards and the states monitoring, and we think 
that is about raising the floor from the federal point of view. 
That is important.
    There are also improvements that focus on quality, on 
directing more state resources toward programs like what you 
heard about in terms of education and training.
    And then there are provisions that focus on continuity, on 
helping a parent and a child stay in that program for not--
right now many parents get in and then in 3 months something 
bureaucratic has happened that isn't their fault and they are 
moved out, and that is not good for children or for parents.
    So I think there are some very important provisions on all 
of those areas. At the same time I think we also think that 
resources are going to be an important part of making those 
provisions effective as another step for moving forward.
    Mr. Pocan. And that is what I meant--your suggestions for 
improvements to the Senate bill--I am sorry.
    Ms. Golden. I am sorry. I think that the headline from our 
perspective would be that in addition to those improvements--to 
what the Senate bill does.
    The other big problems right now are problems about access; 
the number of children in the child care and development block 
grant program is going down because of resource constraints 
that affect the states--the federal dollars going down and 
affecting the states.
    A second problem is rates. You heard from Mrs. Kostantenaco 
about the salaries she pays her employees and that of course is 
directly affected by the rate that is possible that is paid to 
her.
    The Senate bill again includes improvements in terms of 
what states should take into account in setting rates. It tells 
them to take into account the cost of high quality care, but 
without resources to back that up and make it possible to do 
that, it is an important step. It is a key step along the way. 
It doesn't get you all the way there.
    Mr. Pocan. Sure.
    I guess the same question that Ms. Koos. Since you have a 
system that is somewhat similar it sounds like to Wisconsin and 
that you have got a Quality Star system. What other 
improvements would you recommend perhaps to the Senate-passed 
bill?
    Ms. Koos. We really believe that background checks would be 
very important to the safety of children. When state auditors 
looked across state lines, they found that Illinois had 90 
matches for people who had sex offender status. Kentucky had 
30, Massachusetts had 119, and Washington had 28.
    These were all people working in child care and they were 
working in child care because there was no background check, 
and no one knew that they were a sex offender, so background 
checks are really important.
    We are also concerned about safety issues and the training 
that happens for child care providers.
    Mr. Pocan. If I can get one more question in I think I can.
    Dr. Golden, the question would be when you look at some of 
these innovative child care assistance programs, things like 
the Quality Star et cetera, what are some of the other programs 
out there that are really worth taking a look at?
    Ms. Golden. Besides the rating systems which we have talked 
about and the programs that provide help for college or for 
other experiences, I would highlight some innovations that help 
families get child care and keep it better.
    The provision in the Senate bill that suggests for example 
that when you re-determine eligibility, when you look again at 
a family you don't have rules that make it impossible for a 
working parent to do it, like requiring them to stand in line 
all day.
    There are states that are experimenting with how to make 
the rules and the bureaucracy much, much simpler so that you 
don't contradict the purpose of that underlies all this.
    The 12-month eligibility provision in the Senate bill grows 
out of innovations in some states now where they are trying 
again to make sure that you are meeting the original goal of 
the program which is not to put blocks in the way of people's 
work but to make it easy, so I think there are innovations on 
that side as well as on the quality and the improvement of 
care.
    Mr. Pocan. Great. Thank you.
    I yield back.
    Chairman Rokita. I thank the gentleman.
    Mr. Polis is recognized for 5 minutes.
    Mr. Polis. Thank you, Mr. Chairman, and thank you for 
organizing this important hearing today.
    More than a decade ago in Colorado, I co-chaired a task 
force on high school reform. We had a bipartisan task force, a 
great group, and we parted out our final report by saying the 
best way to reform high schools is to ensure that we have 
universal access to high-quality, early childhood education and 
then sit back and wait 14 years and the high schools will look 
a lot better.
    Now that should not detract from the importance of 
improving our high schools today, but certainly all the major 
studies show that one of the most important investments we can 
make in closing the achievement gap and increasing graduation 
rates is at those early education levels; preschool, 
kindergarten, and even before.
    If we are serious about closing the achievement gap, we 
need to begin by ensuring that the achievement gap doesn't 
arise in the first place and that children have access to high-
quality child care and early learning opportunities.
    There have been a number of great studies that have been 
done, longitudinal studies over decades, 30 years that show 
that early childhood education is a good investment for our 
economy in terms of saving resources later on, in terms of 
reduced adjudication and incarceration rates, increased 
graduation rates and employment, and of course transformation 
in all of the lives of the people who receive those of 
services.
    Unfortunately, there is not enough high-quality early 
learning opportunities for families who stand to benefit from 
them and of course society stands to benefit from them. In my 
own city in Colorado, the Colorado Preschool Program only 
enrolls 29 percent of the state's 4-year-olds.
    We do not have universal full-day kindergarten in my state 
of Colorado either. We estimate in Colorado that more than 
16,500 at-risk 4-year-olds do not have preschool available to 
them through either Colorado Preschool Program or Head Start.
    It is not just a point of frustration that preschool is not 
available. It is an issue of equity and achievement and of 
course long-term costs not only to the families affected but to 
society as a whole.
    I was certainly glad to see the Senate bipartisan 
reauthorization that would improve the quality of care that 
children receive. Of course we need a lot more than just that 
reauthorization, but I think there is certainly some language 
we can agree on.
    My first question is for Dr. Golden.
    Recently I introduced the Bipartisan Continuum of Learning 
Act, which would improve the quality of early childhood 
education without new federal spending by improving early 
learning standards or early childhood certification training 
and coordinating early learning programs with school districts.
    My question is around that latter point. I will open it up 
to the rest of the panel.
    How does child care fit into the continuum of early 
childhood in the K-12 system and why is it important to have 
child care coordinate its efforts in terms of deliverables on 
curriculum with the school districts in the K-12 system, and 
what can we do better on that front?
    Dr. Golden?
    Ms. Golden. I would say that there is coordination of 
several kinds and it is uneven across states. I have seen it 
close up in a couple of states and in others a little less 
close-up.
    I think one kind of coordination we have talked about is 
around pre-K. In many states child care providers that meet a 
sufficient standard offered pre-K themselves.
    I remember when I was in New York State we were looking for 
child care and Head Start providers because they had the 
experience with young children and could work with the school 
district in a close way.
    There is also coordination often as I think you heard from 
Ms. Koos around trying to get your standards consistent and 
trying to have a shared training framework.
    Then there are kids in school and after school care, and so 
I think the goal there may not be you don't necessarily need to 
have the same content in the after-school part of the day but 
you want to make sure that it works for children and for 
parents.
    I do want to highlight that almost a third of the children 
served by CCDBG are infants and toddlers, and so for them early 
childhood settings, like child care programs and family care 
homes that you can help to do a really good job, will have far 
more experience with infants and toddlers. The school system 
may not have as much helpful experience there.
    But I do think that the other key feature of the child care 
programs and of the early childhood system that I think is 
helpful to the school system and can improve quality in schools 
is that the early childhood and child care world has a 
tradition of being two generational, of caring about parents 
and about kids, and that is something that I have often seen is 
wisdom and experience and knowledge from the early childhood 
world that can come back and improve school programs.
    Mr. Polis. Great.
    Does anyone else want to briefly address this issue of 
coordination?
    Ms. Koos. I think it is very important because if you look 
at child care, the average child spends 36 hours a week in 
child care. If you don't acknowledge that child care exists and 
that is an important function of the family life right now you 
have missed a large portion of the population and a large 
portion of their day.
    You have to acknowledge that they are in child care. That 
is where they are. That is where we need to address policies 
and procedures for them.
    Mr. Polis. Thank you. I yield back.
    Chairman Rokita. I thank the gentleman.
    I recognize myself for 5 minutes.
    Again, I thank the witnesses. It has been instructive. Like 
many things around here we seem to have two common themes as I 
see them. One revolving around the standards and the other 
revolving around money.
    With regard to the money first, I am a budget committee 
member as well so I have to apologize, I guess, but that is of 
concern because if you all haven't heard, we are broke, Dr. 
Golden.
    It is not just the $17 trillion that we owe--kids that 
don't yet exist pay for. I can make a pretty strong argument if 
I wanted to suck up my 5 minutes about why that is so immoral.
    Notwithstanding everything each of you said. But it is the 
$200 trillion that is on the way over the next 75 years that we 
are not going to survive.
    What I appreciate is when witnesses come with not only the 
problem but with the solution; not just we need more, we need 
more, we need more, but if that is the priority as each of you 
said led by Dr. Golden I would say in terms of testimony, okay, 
who am I to judge? But if that is the priority, what is not so 
much the priority anymore? That is the kind of leadership we 
need.
    So with that, I am going to ask Ms. Jarmon--talk to me 
about improper payments. Give me some specific examples of what 
you are seeing, what we can do to stop the waste and abuse if 
not outright fraud and direct existing dollars to the valid 
needs that have been discussed by the other witnesses here.
    Ms. Jarmon. Yes, Chairman Rokita, as I mentioned, the 
improper payment rates for this program actually went down but 
is it still a large number. It still $306 million that was 
reported for--
    Chairman Rokita. Yes, 5.9 percent. What does that mean?
    Ms. Jarmon. That number--51 percent of--HHS reported that 
51 percent of that relates to administration and documentation 
errors like missing information in case records.
    Chairman Rokita. So does that mean there are not many 
savings there to be had or there is? We can save money there or 
not?
    Ms. Jarmon. What they can do is try to find ways to better 
train to make sure that these things are corrected so that the 
money is going to the providers who should be in the program 
and to the children who are eligible because the other 49 
percent of the errors related to lack of verification.
    In some cases not properly verifying that these children 
who are in the program were eligible to be in the program and 
HHS has been working with the states to try to address this 
issue. They have incorporated--they are facilitating more peer-
to-peer reviews between states because there are some states 
that have much higher error rates than other states so the 
states who have lower their rates maybe they can learn from 
each other so they are trying to--if more of those things can 
happen that should help to further reduce the improper--
    Chairman Rokita. Have you found any fraud?
    Ms. Jarmon. We haven't in our work on improper payments.
    Chairman Rokita. Have you looked for it?
    Ms. Jarmon. Our work is focused on reporting improper 
payments. We have a fraud hotline where some fraud is reported 
to us, but I am not aware of it related to this program. I 
could get back to you on that.
    Chairman Rokita. So nothing that you know that is retail or 
wholesale in that regard?
    Ms. Jarmon. Right.
    Chairman Rokita. Okay, thank you.
    Dr. Golden, really briefly; solutions. If this is the 
priority and I will note that since the last reauthorization we 
have more than doubled our spending in this area, so I am sure 
your testimony if it was back in 1996 would have been we are 
not spending enough and now we are still not spending enough.
    I don't know the numbers on how many more kids that we are 
helping but I imagine that has gone up too. So the point I am 
trying to make, Doctor, is that this can't be an open ended 
thing. There have got to be limits and priorities put on this.
    Talk to me in a positive manner about what we can do to 
better direct money to children so that they and their parents 
can lead better lives for themselves because that is what we 
want. We don't want dependency on government right?
    Ms. Golden. What I find particularly heartening about this 
hearing is the commitment that you and that everyone have 
expressed to child care as a central issue.
    I guess I do want to note one thing before going to the 
solutions which is that your thought about the trend that 
actually I think many people believe we have been going up but 
in fact, we have just fallen to a 10-year low.
    Both total spending at a 10-year low and average of 
children served at a low since 1998, so more than 10 years. 
That is a challenge in terms of--
    Chairman Rokita. I am not sure--I just disagree with you. I 
would like you to submit that for the record because the 
figures I am looking at go from nearly 2 billion in 1997 to 5 
billion now. I am running out of time. You have 5 seconds for a 
solution.
    Ms. Golden. Sure. I think the solution we would be glad to 
work with you about the focusing on this priority and where 
else we believe there are resources--
    Chairman Rokita. So not much of a solution at least right 
here.
    Thank you.
    I yield to Mrs. Davis for 5 minutes.
    Mrs. Davis. Thank you, Mr. Chairman.
    And thank you to all of you.
    I am sorry I am doing double duty here, so I wasn't able to 
hear all of your discussion but I wanted to just go back to a 
few issues that I know you have covered today but if you could 
respond to those.
    Part of it is the options that parents have and again this 
is part of the solutions; access to affordable quality and I 
say child care and pre-K and we know that there are 
differences.
    Dr. Golden, do parents have enough options? We talk about 
block granting and the opportunities that states have used for 
that, but truly, what are the different options that parents 
have and if you as well could note those differences.
    I think you have talked about that a little bit but in 
terms of credentialing, in terms of there are so many issues 
involved if we try to separate out child care and true quality 
pre-K.
    Ms. Golden. Well I guess first of all on the question of 
parents' options I think--and I guess that this has come 
through in all of our testimony that the child care, the CCDBG 
program helps parents have more options than they would have 
otherwise.
    It helps them gain access to higher quality care than they 
would otherwise, and to safer care, and it enables them to gain 
access to options that could be in a family setting, in a 
center, that could accommodate low-wage work, late night, 
weekends, so that is an important strength.
    I think the other side of that which you have also heard in 
our testimony and which I am wrestling with as we talk about 
resources, is that many parents don't have access to any of 
those things. The Child Care and Development Block Grant 
reaches around one in six of the eligible parents.
    Many states have waiting lists. Parents who don't have help 
paying for care find themselves making choices that every day 
when they get to work your heart is in your throat because you 
are not sure it is a good choice or you lose your job. That I 
think would be number one headline.
    I think the second would be that making sure that parents 
who get help from the child care program are getting a high-
quality setting for their young child. I think is what we have 
all been talking about. That involves both improvements within 
the program and coordinating well with other programs like 
Heart Start, Early Head Start, and prekindergarten.
    The Child Care and Development Block Grant often provides 
some of the glue to do that. For example, the rating system 
that lets you put the pieces together. Does that cover what you 
are thinking about?
    Mrs. Davis. Yes. I think part of it is where there are 
communities where this is not necessarily the case with the 
coordination isn't as strong--
    Ms. Golden. Absolutely.
    Mrs. Davis.--How do we provide those kinds of best 
practices or what is it that they need to be able to move 
forward?
    Ms. Golden. Well, I think some of what they need is in the 
Senate reauthorization proposal, which talks about a variety of 
coordination requirements around a training framework that 
supports young children's development and really highlights 
coordination not only with Early Head Start, Head Start, pre-K, 
but for example, programs with children with disabilities.
    The Senate reauthorization puts in place a lot of the key 
pieces. I do think that beyond that federal framework there is 
a lot of technical assistance and then there are again the 
resources that it will take to do it, but I do think that the 
reauthorization includes some of the crucial pieces that put 
the building blocks in place so you can go ahead and make it 
happen.
    Mrs. Davis. Does anybody want to respond to what is missing 
in that?
    Ms. Koos. It is possible to do.
    In Oklahoma, the subsidy system is tied to the Stars rating 
system and so 96 percent of the children who receive subsidy 
for child care are in 2-or 3-Star facilities, so they are in 
quality settings even though they get--they are in a subsidy 
situation.
    That is not true in every state. In some states the subsidy 
level is the same regardless of the quality of the program and 
so parents have to make choices that aren't necessarily tied to 
quality but they are more tied to what they can afford from 
their pocketbook because a higher quality program costs more so 
they have a larger share to pick up if they go to a quality 
program, so that is an issue.
    We also have 76 percent of the children in the state of 
Oklahoma in our pre-K program, so we have to get them ready for 
that pre-K program, and then once they are in that pre-K 
program we have a larger percentage of the children in a pre-K 
program getting them ready for kindergarten.
    Ms. Golden. One other thing that brings to mind that is 
helpful in the Senate bill and that could spread it further is 
that one of the obstacles to coordinating is sometimes if a 
state's child care subsidy policies aren't very strong.
    So for example, if a state doesn't let children stay in the 
program for the full year but has policies that lead to lots of 
churning and turnover, that is going to make it really hard to 
coordinate with your child care programs, to coordinate with 
quality because the quality provider isn't going to want to 
have to deal with that constant churning. So if the state--
    Chairman Rokita. The gentlelady's time has expired. I 
appreciate it.
    The gentlelady yields back.
    Mrs. Davis. Thank you, Mr. Chairman.
    Chairman Rokita. The ranking member is recognized to close.
    Mr. Scott. Thank you, Mr. Chairman.
    I thank our witnesses. This has been an excellent hearing. 
We have heard that it's quite necessary to fund the block grant 
as well as keep pre-K and Head Start and coordinate them 
together particularly in light of the fact that many pre-K and 
Head Start programs are only half-day, that is not enough for a 
full-time working person.
    We have also heard the cost of not making these 
investments. When you talk about the long-term budget situation 
when you have an initiative that can reduce teen pregnancy, 
dropouts, criminal justice involvement, drug abuse, suicide, 
and everything else many of which have extraordinary long-term 
cost implications, if you can make those investments upfront, 
you can do a lot to reduce the long-term budget implications.
    So I think there is a consensus that we need to do 
something to improve the quality of the programs, and I look 
forward to working with you as we do that.
    I yield back.
    Chairman Rokita. I thank the gentleman.
    I don't have much in terms of a closing that hasn't already 
been discussed except to say a few things.
    The first being thank you. I appreciate each of the 
witnesses leadership in their particular subareas of what I 
think is a very important obviously subject matter but also an 
important profession, one that it would seem to me is executed 
more out of love than for any kind of monetary gain.
    If I had more time, Mrs. Kostantenaco, in my questioning I 
would have asked you about if you found an employee shortage 
really or not or if regardless of the pay amount that you were 
or any of you were paying your employees whether that is really 
why they came to work or not.
    I would have also asked how many are you losing not just to 
other companies in the industry or other industries but if you 
are losing any to staying at home and collecting unemployment 
checks instead. That goes on for 2 years now in this country.
    Yes, and for the record, I am seeing some nods. Seeing some 
nods.
    There is some interesting comments that have been made here 
today about how people are struggling over 6 years now and 
there are other ways rather than more government dependence to 
get this economy going again.
    I think as Americans we ought to go back and explore some 
of those. That is a different hearing perhaps, but you all 
touched on it in a way.
    For the record, I want to make sure that I understood Ms. 
Jarmon's testimony correctly.
    You haven't necessarily found fraud in these programs, but 
you haven't been looking for it either. You do a documentary 
review if I understand it correctly to look for based on paper 
reviews whether or not an improper payment has been made. That 
is a different kind of audit, correct?
    Ms. Jarmon. Right.
    Chairman Rokita. I see the witness nodding her head yes, so 
I want to make sure that is clear.
    I also appreciate what help will be Dr. Golden and for the 
other witnesses and others that are watching this hearing now 
about what the solutions can be that don't necessarily involve 
throwing new money at a problem but what we can do to make sure 
the money that we have allocated gets to the people that really 
need it again so they don't have to be dependent on this kind 
of program or any other one really.
    That should be our goal, so that people can be creating an 
environment where people can build the best lives for 
themselves and their families. It that should be it quite 
simply, and as I look at the witnesses here today I see that in 
your eyes and in the words you uttered that is the goal as well 
and that is very much appreciated.
    With regard to the solutions and since this has been done 
to me in the past as I chaired this subcommittee by other 
ranking members not necessarily this one but I have sat in that 
they have asked questions as part of their closing.
    Very briefly I want to say out of fairness is there 
anything that you two, Ms. Koos, Mrs. Kostantenaco, want to add 
in terms of the solutions discussions that we started and what 
we can do to make these--aside from what has been said without 
throwing more money at the problem necessarily what we can do 
to make sure the money gets to where it is needed mostly?
    Mrs. Kostantenaco. Well, that we all work together and that 
the rules do not supersede state regulations and that we are 
all working together under the same thing to have it all work 
to the best of our abilities.
    Chairman Rokita. Not supersede state regulation.
    Mrs. Kostantenaco. Right.
    Chairman Rokita. So there is a recognition there that some 
states actually do it right. There is also a recognition of 
what you said I would think that a bureaucrat in Health and 
Human Services that is hundreds maybe thousands of miles away 
doesn't necessarily care more for our kids than those adults 
that are closest to our kids--
    Mrs. Kostantenaco. That is correct.
    Chairman Rokita.--including your employees. Thank you.
    Ms. Koos, anything else?
    Ms. Koos. I would just say that we would like to see CCDBG 
focus on safety accountability for children. We want 
protections put in place for children so that all children when 
they go to child care are safe.
    Chairman Rokita. Seeing no more business before the 
committee, we remain adjourned. Thanks.
    [Additional Submissions by Mr. Kline follow:]
    
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    
    [Additional Submissions by Mr. Miller follow:]
    
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    
    [Questions submitted for the record and their responses 
follow:]

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    [Ms. Jarmon response to questions submitted follows:]
   
   [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
   
    [Ms. Koos response to questions submitted follows:]
   
   [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
   
    
    [Mrs. Kostantenaco response to questions submitted 
follows:]

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    [Whereupon, at 11:20 a.m., the subcommittee was adjourned.]

                                 [all]
</pre></body></html>
